DOS Actions Regarding Internet Banking



         Audit Report No. 99-043
            October 27, 1999




        OFFICE OF AUDITS

 OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                                   Office of Audits
Washington, D.C. 20434                                                                      Office of Inspector General




   DATE:            October 27, 1999

   TO:              James L. Sexton, Director
                    Division of Supervision



   FROM:            David H. Loewenstein
                    Assistant Inspector General

   SUBJECT:         DOS Actions Regarding Internet Banking
                    (Audit Report No. 99-043)

   The Federal Deposit Insurance Corporation’s (FDIC) Office of Inspector General (OIG) has
   completed an audit survey of the FDIC’s actions regarding Internet banking. The Division of
   Supervision (DOS) established electronic banking examination (EBE) procedures to address
   evolving areas of electronic banking, including Internet banking. DOS’s procedures generally
   provide a sound framework for evaluating Internet banking practices at FDIC-supervised
   financial institutions. However, our survey identified several opportunities to improve the
   procedures and their implementation that, if adopted, will enhance DOS’ supervisory activities
   related to Internet banking.


   BACKGROUND

   Internet banking is the most recent aspect of electronic banking being pursued by the banking
   industry. According to recent statistics reported by Ernst & Young, some level of Internet
   services will be offered by 65 percent of U.S. banks during 1999, up from 18 percent in 1998 and
   5 percent in 1997. Ernst & Young also projects that 52 percent of U.S. banks will assist
   corporations in initiating transactions over the Internet, up from 13 percent in 1998 and 3 percent
   in 1997. Such growth is attributable to the low product or service distribution costs characteristic
   of the Internet.1 These decreased costs offer participating banks the opportunity to offer improved
   services at lower costs to the consumer.

   Prudent business acumen normally associates higher returns with higher risk. The same concepts
   apply to financial institutions that offer Internet banking services to their customers. The
   principal benefits of Internet access, namely its global reach and open architecture, present
   significant security risks. These risks, along with an increased dependency on computers in
   general, pose significant challenges to the banking industry. For example, recent intermittent
   Web outages at one of the largest electronic bill payment service providers adversely impacted


   1
    Internet's E-conomy Gets Real, Mark Leibovich, Tim Smart, Lanthe Jeanne Dugan, The Washington Post, Page A1,
   June 20, 1999.


                                                          2
nearly half a million customers at about 20 large banks.2

Aware of these trends, the U.S. General Accounting Office (GAO) recently completed an audit
and issued a report entitled Electronic Banking: Enhancing Federal Oversight of Internet
Banking Activities (GAO/GGD-99-91, July 1999). The report commended the FDIC for its
proactive approach to examining Internet banking but cited an area that could benefit from
management’s attention. This area is the need for greater examination coverage of outside
servicers conducting Internet banking.

To address the growth and risk of Internet banking, DOS established its EBE procedures in
January 1997 and refined these procedures in June 1998. FDIC examiners use the EBE
procedures to guide them in evaluating Internet banking at financial institutions. DOS has also
played a leading role in the FDIC's New Banking Technologies Task Force and CyberBanking
Speaker Series, both of which have contributed to raising the FDIC's level of awareness
concerning Internet banking and its related risks. Additionally, DOS has established an easy-to-
use FDIC Intranet Web site containing examiner aides such as a current list of known banks with
an Internet presence. Furthermore, DOS uses three management systems to track information
related to bank examinations involving Internet banking. They include the Electronic Banking
On Line Data Entry System (EBOLDES), the Banking On Line Tracking System (BITS), and the
Scheduling Hours and Reporting Package (SHARP).

The EBE procedures use three risk levels to categorize a bank’s Internet activity and the
associated level of examination. Level one pertains to information-only sites that allow access to
general-purpose marketing and other publicly available information or the transmission of non-
sensitive electronic mail. Level two relates to electronic information transfer systems that are
interactive in that they provide the ability to transmit sensitive messages, documents, or files
between financial institutions and users. A level three designation is used for institutions that
provide transactional banking services, such as transferring funds. The results of the FDIC's
Internet banking examinations are incorporated into the management component of the uniform
financial institution rating used to measure an examined financial institution's safety and
soundness.

The Federal Financial Institutions Examination Council (FFIEC) Information Systems (IS)
Examination Handbook and a draft version of comprehensive information technology (IT)
technical procedures supplements the safety and soundness EBE procedures. These technical
procedures are intended for use by electronic banking subject matter experts (ESME) or IS
examination specialists. To support the implementation of these procedures, DOS established an
EBE procedures training program and an ESME program. DOS intends for the ESME program
to supplement DOS’s IS examiners by creating a group of safety and soundness examination
staff proficient in examining electronic banking technology. The FDIC employed 197 ESMEs at
the commencement of our survey, including IS examination specialists at the regional and field
office levels.



2
 Computer Glitch At CheckFree Snags Online Banking, Rebecca Buckman, The Wall Street Journal, Page 10,
April 29, 1999.

                                                       2
DOS temporarily discontinued ESME training during 1999 to focus its resources on Year 2000
issues. Additionally, ESMEs in DOS’s Atlanta, Boston, and Dallas regional offices indicated
that they had devoted little time to Internet banking activity in light of the Corporation’s focus on
Year 2000 issues. DOS indicated that it plans to resume ESME training in 2000.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our survey was to identify and evaluate DOS practices regarding Internet
banking to determine the nature, timing, and extent of audit procedures needed to further
evaluate the effectiveness and efficiencies of these practices. To address this objective, we
evaluated the (1) effectiveness of the DOS EBE procedures as applied to Internet banking and
(2) degree to which DOS examiners were following EBE procedures during Internet banking
examinations.

We interviewed FDIC personnel from DOS’s Planning and Program Development and Operations
Sections in Washington, D.C. We also interviewed DOS examination staff in Atlanta, Georgia;
Boston, Massachusetts; and Dallas, Texas. We reviewed DOS’s EBE procedures and safety and
soundness Internet banking examination results contained within EBOLDES, BITS, and SHARP.
We also reviewed three sets of working papers representing levels one, two, and three Internet
banking examinations. Furthermore, we interviewed GAO representatives who had previously
conducted a review of electronic banking examinations so that we could avoid duplicating their
work.

Our survey focused on safety and soundness examinations involving Internet banking conducted
between January 1, 1999 and February 28, 1999 so that our work would supplement the work
performed by GAO and provide enhanced value to DOS. This focus also increased assurance
that our conclusions regarding institution Web sites would be based on conditions similar to
those encountered by DOS during examinations conducted in a comparable time frame to the
original examination dates. We judgmentally sampled 3 of 54 safety and soundness
examinations involving Internet banking to verify whether the examinations conformed to EBE
procedures. We also determined for this same time frame whether Internet banking existed at
examined financial institutions previously reported as having none and whether examination
levels applied to Internet banking activity were consistent with DOS policy. During our survey,
we documented our understanding of DOS’s Internet banking examination process using a
control flowchart. At DOS’s request, we provided a copy of the flowchart for use in DOS
training initiatives. We conducted our audit survey between January 1999 and May 1999 in
accordance with generally accepted government auditing standards.

Based on our survey, we determined that further audit work would provide increased value to DOS
if we delayed it until DOS had the opportunity to address the issues described in this report. The
extensive use of outside service providers by banks offering Internet banking, the limited number of
servicer examinations, and needed improvements in the structure and content of examination
working papers reduced the value of conducting additional audit work at this time. After allowing
time for DOS’s program to mature and incorporate what we view as needed enhancements, we will
revisit such an audit within the next 12 to 18 months to assess the effectiveness of the Internet


                                                 3
banking examination process. This audit would more thoroughly evaluate examination working
papers and other factors related to the implementation of the DOS examination program.


RESULTS OF AUDIT SURVEY

Although our survey was based on a limited sample of DOS Internet banking activities, our
observations indicate that DOS’s Internet banking examination process provides a sound
framework for examining Internet banking at financial institutions supervised by the FDIC. In
addition, DOS’s application process for deposit insurance addresses new banks that are totally
Internet-based. Further, DOS has established EBE procedures that should contribute to effective
examinations, and most examiners have received training on these procedures. DOS also
established a review process for examination reports disclosing Internet banking issues and a
central repository to track the results of examinations involving Internet banking.

While these actions are positive and reflect DOS's awareness of the increasing impact of Internet
banking on the safety and soundness of financial institutions, we identified opportunities to
enhance the Internet banking examination process. DOS’s implementation of planning
procedures can be refined to ensure that examiners use the Internet and the FDIC intranet during
examination planning to identify Internet banking activities of institutions scheduled for
examination. EBE procedures can also be expanded to instruct examiners how and when to
make key determinations and to improve EBOLDES data integrity. In addition, the EBE
procedures can be clarified to ensure documented examination determinations, the use of scoping
or planning memorandums, and independent work paper reviews.

We also noted an issue similar to one reported by GAO regarding examination coverage of
Internet banking service providers. Specifically, DOS had not performed examinations of most
service providers that supported institutions offering transactional Internet banking services.
Because GAO addressed this issue, we are not including any recommendations in this report.
However, we encourage DOS, working in conjunction with the FFIEC, to continue its efforts to
establish an examination program for Internet banking service providers.


IMPLEMENTATION OF PLANNING PROCEDURES COULD BE IMPROVED

Examiners did not always take advantage of available Internet and FDIC Intranet resources
during examination planning to determine whether the bank to be examined had an Internet
presence and the extent of services offered. For the three exams selected for review during our
survey, we noted no evidence that examiners had used available Internet and FDIC Intranet
resources during pre-examination planning. Subsequent discussions with the examination teams
indicated that they had not checked for the existence or extent of the institution’s Internet
presence during exam planning.

Although EBE procedures suggest that examiners use the Internet and FDIC Intranet during
examination planning to determine whether institutions to be examined have an Internet presence
and the extent of services offered through such a presence, they do not require such use. In


                                               4
addition, EBE procedures did not require that Internet banking examination planning be
documented through a scoping or planning memorandum. The limited amount of time expended
on examinations may have contributed to examiners not using the Internet and FDIC Intranet.
During the first quarter of 1999, average time spent on Internet banking portions of examinations
ranged from 3.6 hours to 14.1 hours as reported in SHARP.

Independent verification of information provided by financial institutions can enhance DOS’s
knowledge and understanding of institution operations during the planning process and can assist
management in scheduling and assigning appropriate resources. DOS examiners did not identify
Internet banking activity for 4 of 26 institution examinations sampled (see table 1). In addition,
examiners did not perform the level of examination procedures consistent with transactional
Internet banking at 3 of 10 institutions sampled (see table 2).

Table 1: Instances of Overlooked Internet Banking
    Number              Comments
                        Fully Transactional Site (level three) included on 1/29/99
    Sample Bank 1       FDIC List of Internet Banks.
                        Information Only Site (level one) in which both site
                        content and bank personnel substantiate site's existence at
                        time of exam. Omitted from 1/29/99 FDIC List of Internet
    Sample Bank 2       Banks.
                        Information Only Site (level one) in which bank personnel
                        substantiate site's existence at time of exam. Omitted
    Sample Bank 3       from 1/29/99 FDIC List of Internet Banks.
                        Information Only Site (level one) included on 1/29/99
    Sample Bank 4       FDIC List of Internet Banks.
                        From a sample size of 26 examinations during the
                        period of 1/1/99 to 2/28/99 (15% error rate) reporting
    Total 4             no internet banking presence.
   Source: EBOLDES and OIG analysis.




                                                5
Table 2: Instances of Internet Banking Exam Level Non-Performance
    Number               Comments
                         Examiner noted within EBOLDES that site was
                         transactional but performed only level-two exam without
    Sample Bank 1        explanation.
                         Examiner noted within EBOLDES that funds transfer
                         capability existed but performed only level-two exam
    Sample Bank 2        without explanation.
                         Examiner noted within EBOLDES that funds transfer
                         capability existed but performed only level-two exam
    Sample Bank 3        without explanation.
                         From a sample size of 10 examinations during the
                         period of 1/1/99 to 2/28/99 (30% error rate) reporting
    Total 3              an Internet banking presence.
   Source: EBOLDES and OIG analysis.

In addition to not addressing prevailing risk by overlooking or understating Internet banking
activity and omitting examination procedures, DOS’s ability to effectively plan for upcoming
examinations was impacted. Incomplete planning can reduce or preclude the needed
involvement of ESMEs and IS exam specialists in examinations.


Recommendations

We recommend that the Director, DOS, ensure that:

(1)    Examiners use the Internet and FDIC Intranet during exam planning to correctly identify
       the existence of and apply the examination procedures consistent with the Internet
       banking activities at financial institutions.

(2)    EBE training emphasizes using the Internet and FDIC Intranet during the planning phase
       of future electronic banking examinations.

(3)    Examiners document their research of institution Internet banking activity within
       examination working papers and scoping or planning memorandums.


ELECTRONIC BANKING EXAMINATION PROCEDURES NEED EXPANSION AND
CLARIFICATION

DOS’s EBE procedures can be improved to assist examiners in determining and documenting
whether an institution's Internet banking site is connected to its internal computer systems and
when to make this and other key examination determinations.




                                                 6
DOS’s EBE procedures address several key examiner determinations to be made during the
Internet banking examination process. Such determinations include whether (1) Internet banking
exists, (2) the institution's Internet banking site is connected to its internal computer systems, (3)
the Internet banking offered is information only, information exchange or transactional, and (4)
an ESME or IS examination specialist should be consulted during the planning and performance
of the examination. Key examiner determinations should be documented because they govern
the level of examination coverage and provide support for examiner decisions. Documentation
also facilitates supervisory review of the decision-making process and provides assurance that
the examination was conducted in accordance with management's intentions.

DOS can improve documentation related to key examination determinations. The DOS Internet
banking examination working papers reviewed did not consistently provide a viable audit trail to
facilitate management review of the examination process. Work programs were incomplete and
supporting exhibits unavailable for some conclusions in all three sets of working papers. For
example, four relevant pages of the core analysis work program, which forms the basis for
examiner conclusions on Internet banking capabilities and risk, were not completed for one
examination. In a second examination, the core analysis procedure called for determining the
adequacy of the electronic banking security program but was marked as not applicable. A third
set of working papers contained no response for the procedure that called for determining
whether management verifies the accuracy and content of interactive programs. By enhancing
documentation of key determinations and the actions taken while making these determinations,
DOS can further enhance confidence in examination results.

Determining whether Internet banking exists is the first step in ascertaining whether to apply
Internet banking exam procedures during a planned examination. This step involves verifying
whether the bank has an Internet presence via the Internet and FDIC Intranet and confirming the
currency of references to Internet banking, if any, from previous examinations. None of the
three sets of examination working papers reviewed during our survey contained evidence of such
a verification during examination planning. Subsequent discussions with examiners indicated
that the verifications were not performed.

After determining whether an institution has an Internet presence and the level of activities
associated with such a presence, the examiner must determine the related risk. The first factor in
assessing the risk posed by an institution's Internet banking activity is determining whether
connectivity exists between an institution's Internet banking site and its internal computer
systems. This determination dictates the level of technical expertise needed by examination
personnel to evaluate the Internet banking activity and influences the timing and extent of an
ESME or IS examination specialist's involvement on the exam. None of the three sets of
examination working papers that we reviewed contained evidence of such an analysis.

The next factor in assessing risk associated with an institution’s Internet banking activity
involves determining whether an Internet banking site is information only, information exchange
or transactional. An informational Internet site is limited to the display of information related to
a bank and its customers. Transactional sites permit customers to transfer information and
process financial transactions. As noted in our previous audit condition, examiners experienced
some difficulty making this determination.


                                                  7
Finally, the examiner must determine whether and when an ESME or IS examination specialist
should be consulted to ensure that the requisite technical expertise is applied to the examination
on a timely basis. Such involvement ensures that the examination team applies the necessary
technical examination procedures and addresses all applicable Internet banking exposures.
Consultation between the safety and soundness examiner and ESME was not documented in any
of the three sets of working papers reviewed. In addition, two of the three sets of working papers
did not conform with DOS EBE procedures regarding the review level performed. For example,
the examination working papers for a level-three examination contained no evidence of a
technical review by a designated ESME or IS exam specialist or an explanation describing why
the exam team omitted the technical review.

Although DOS’s EBE procedures encourage performing and documenting the determinations
described, they do not require them. Additionally, the procedures do not require a review of
Internet banking examination working papers to ensure their quality. Evidence of ESME, IS
exam specialist, or other review was not reflected in the working papers reviewed during this
survey. We believe that the lack of documentation and independent review for these
examinations was caused, at least in part, by DOS not requiring these actions. As a result,
working paper conclusions and the report of examination were not consistent for two of the three
sets of working papers reviewed. In one case, examination conclusions noted inadequate
electronic banking policy and the report identified the matter as requiring the attention of the
financial institution’s Board of Directors. However, the examiner assigned a management
component rating of one, the best rating available. In another instance, the examiner’s working
papers contained only an expired contract with the institution’s servicer and the examiner
omitted evidence of a review of this servicer's security or virus protection. However, the
examination report's risk management section for electronic banking indicated that the bank's
Internet site through the servicer was adequately controlled and that it used both virus protection
and security software.

Recommendations

We recommend that the Director, DOS, ensure that:

(4)    EBE procedures are revised to require: (a) detailed instructions on determining the
      connectivity between an institution's Internet banking site and its internal computer
      systems and when to make this and other key examination determinations; (b) key
      Internet banking examination process determinations be documented within the working
      papers; and (c) Internet banking examination working papers and reports be
      independently reviewed and that evidence of this review be retained in the working
      papers.




                                                 8
CONCLUSION

In recognition of the substantial risk that Internet banking poses to the banking industry, DOS,
through its EBE procedures, has established a sound framework for evaluating Internet banking
at supervised financial institutions. However, the noted opportunities for improvement are
critical to ensuring effective implementation of this framework. Along with the GAO, we also
encourage DOS to continue its efforts to establish an examination program for Internet banking
service providers.

Additional audit work will provide more benefit to DOS if we delay it because of the extensive
use of outside service providers by banks offering Internet banking, the limited number of
current servicer examinations, and needed improvements in the structure and content of
examination working papers. After allowing time for DOS’s program to mature and incorporate
what we view as needed enhancements, we will revisit pursuing such an audit to further assess
the effectiveness of the Internet banking examination process. This audit would be based on a
more complete evaluation of examination working papers and other factors related to the
implementation of DOS’s examination program.


CORPORATION COMMENTS AND OIG EVALUATION

On October 14, 1999, the Director, DOS, provided a written response to the draft report. The
response is presented in appendix I of this report. The Director, DOS, stated that he would
complete actions to address the report's findings by September 30, 2000.

The Corporation’s response to the draft report provided the elements necessary for management
decisions on the report’s recommendations. Therefore, no further response to this report is
necessary. Appendix II presents management’s proposed action on our recommendations and
shows that there is a management decision for each recommendation in this report.




                                                9
                                                                                      APPENDIX I
                                 CORPORATION COMMENTS

         Federal Deposit Insurance Corporation
         550 17th Street, NW, Washington, DC 20429                                     Division of Supervision




                                                              October 14, 1999


MEMORANDUM TO:                    Steven A. Switzer
                                  Deputy Inspector General


FROM:                             James L. Sexton
                                  Director

SUBJECT:                          OIG Draft Report: DOS Actions Regarding Internet Banking


The Division of Supervision (DOS) is pleased to provide our official response to the Office of
Inspector General’s (OIG) draft report entitled, DOS Actions Regarding Internet Banking. Our
response addresses the specific findings of the report and also outlines DOS’ plans for
implementing corrective action relative to the four recommendations that are contained in the
report.

GENERAL COMMENTS

In general, DOS agrees with the findings and observations presented by the OIG in the draft
report. In particular, we recognize the OIG’s observation that DOS has established a “sound
framework for evaluating Internet banking practices at FDIC-supervised financial institutions.”
This finding is consistent with the comments expressed by the GAO in their recent audit of
Internet banking activities and regulatory oversight.

The OIG’s report summarizes an audit survey that consisted of limited staff interviews, review of
internal guidance and procedures related to electronic banking, research of certain examination
databases, and review of three sets of examination work papers. The stated objective of the
survey was to “identify and evaluate DOS practices regarding Internet banking to determine the
nature, timing, and extent of audit procedures needed to further evaluate the effectiveness and
efficiencies of these practices.” Ultimately, the OIG determined that further audit work would be
more effective if delayed pending DOS’ opportunity to address certain issues and implement
related OIG recommendations.

DOS agrees that a delay of further audit work would be appropriate. However, the OIG’s
proposal to revisit the area for a full audit within the next 12 to 18 months leaves limited time for
the implementation of corrective action. DOS would therefore like to propose that the audit
commence no earlier than 18 months from the date that the final version of the subject report is
issued.


                                                     10
            COMMENTS ON AUDIT SURVEY BACKGROUND AND RESULTS

            Upon close review of the draft report, DOS staff identified a few points that are worthy of
            comment or clarification. Specific comments are provided below:

            The draft report notes (on page three) that the GAO recently completed an audit of regulatory
            oversight of Internet banking and recommended that the FDIC address the need for greater
            examination coverage of third party vendors offering Internet banking services. DOS would like
            to note that the GAO’s recommendation was directed at all of the Federal banking agencies, not
            just the FDIC. Also, the banking agencies, through the FFIEC Information Systems
            Subcommittee, have already implemented a supervisory program addressing Internet banking
            vendors.

            On page three, the draft report references three DOS management systems that “track
            information related to bank examinations involving Internet banking.” These systems are
            identified as the Electronic Banking Data Entry System, the Bank Information Tracking System
  See       (BITS), and the Scheduling Hours and Reporting Package (SHARP). It should be clarified that
Comment 1
 below
            BITS and SHARP serve purposes entirely unrelated to electronic banking examination activity.
            BITS contains data derived from banks’ financial performance and examinations; however, no
            specific electronic banking data is tracked in BITS. Similarly, SHARP contains information
            pertaining to examination activities and work hours; however, the only data relevant to the area
            of electronic banking consists of examiner hours spent on electronic banking activities.

  See       A comment on page three implies that the Electronic Banking Examination Procedures use three
Comment 2   “risk levels to categorize a bank’s Internet activity and the associated level of examination.”
 below      DOS would like to clarify that the Electronic Banking Examination Procedures use three levels
            to define the functionality of electronic banking systems. These levels are based on the
            capabilities permitted by the system and are intended to guide examiners in performing an
            appropriate scope of review. The degree of risk inherent in a given system does not singularly
            depend on the level of functionality; rather, it depends on management’s implementation of
            appropriate controls and procedures. This distinction is important in light of DOS’ risk-based
            approach to examination and reliance on examiner judgement.

            Page four of the draft report references technical examination guidance on the subject of
            electronic banking. A “draft version of comprehensive information technology technical
            procedures supplements the safety and soundness procedures” is mentioned. It should be
            clarified that DOS has developed three draft technical work programs that address the Unix
            operating system, the NT operating system, and firewalls. These three work programs were
            introduced in 1997 and remain in the field testing stage.

            Comment 1: While BITS and SHARP serve several purposes, the fact that they are
            management information systems that report upon all DOS bank examinations makes them
            relevant to Internet banking examinations.

            Comment 2: Risk is inherent to DOS’s method of categorizing a bank’s Internet activity, as
            well as examining that activity.


                                                            11
RESPONSE TO RECOMMENDATIONS

The following summarizes DOS’ response to the four specific recommendations outlined in the
OIG’s draft report. As required by the conditions of the Inspector General Act, as amended, and
related guidance, our response addresses: (1) the specific corrective actions already taken, if
applicable; (2) corrective actions to be taken along with the expected completion date for their
implementation; and (3) documentation that will confirm completion of corrective actions.

Three recommendations are specifically targeted at field examiners’ implementation of the DOS
Safety and Soundness Electronic Banking Examination Procedures. These recommendations
include ensuring that: (1) examiners use the Internet and FDICnet during examination planning
to identify Internet banking activities and apply appropriate procedures; (2) electronic banking
training emphasizes use of the FDICnet and Internet during the exam planning phase; and (3)
examiners document their research of Internet banking activity within examination work papers
and planning memoranda. DOS generally agrees with these recommendations and plans to take
corresponding action.

Specific Corrective Actions Already Taken:

Initiatives to alert DOS examination staff to the importance of using internal resources, such as
the FDICnet, to identify Internet banking have already been initiated. During two recent regional
training conferences (New York Region and San Francisco Region), breakout sessions were
conducted on electronic banking. During these sessions, examiners were reminded to utilize
specific tools such as the Electronic Banking Data Entry System and internal lists of known
Internet banks during the pre-exam process. Once examiners identify Internet banking, they
have been directed to review the bank’s Internet site to determine the extent of its functionality.

Also, all DOS assistant examiners that attend the Introduction to Examinations core training
session receive instruction on electronic banking and the Electronic Banking Examination
Procedures. During these sessions, the attendees are reminded to use the FDICnet and the
Internet to identify Internet banking activities during the pre-examination process.

Corrective Actions to be Taken and Related Timeline:

To ensure that examiners utilize resources available on the FDICnet, and in turn, review the
bank’s web site on the Internet, the list of risk scoping activities utilized by safety and soundness
examiners will be updated to address this activity. Specifically, the practice of reviewing the
Electronic Banking Data Entry System for evidence of electronic banking will be added to the
list of pre-examination activities that are outlined in the Examination Documentation (ED)
modules. This addition will be completed in the next regularly scheduled update to the ED
modules, which occurs in January 2000.

With respect to examiner training, DOS is anticipating “refresher” electronic banking training for
safety and soundness examiners. We expect to begin training during the summer of 2000. The
training will provide an opportunity to enhance examiner awareness of electronic banking in
general and clarify issues related to the Electronic Banking Examination Procedures. Items such


                                                 12
as pre-examination activities would be emphasized during the training. DOS plans to determine
an appropriate and feasible training strategy in early 2000. A variety of approaches and venues
will be considered which take into account other DOS training initiatives and commitments. A
plan, detailing the objectives, content, and schedule for the electronic banking training, will be
completed in early 2000.

The DOS Manual of Examination Policies contains a section on work paper documentation that
provides general guidance and direction on work paper development and retention. However,
the section does not specifically enumerate certain documents that must be retained at every
examination. Given the wide range of examination procedures and activities conducted at safety
and soundness examinations and the variety of financial institutions examined, such specificity
would not be meaningful in all situations. However, guidance on electronic banking related
work papers will be incorporated into the existing Electronic Banking Section of the DOS
Manual. This guidance will state that the electronic banking work papers should contain
documentation to support that examiners have reviewed available resources to identify the
existence and extent of Internet banking activities. Revisions to the Electronic Banking Section
of the manual will be incorporated into the next regularly scheduled update, which will occur in
the first quarter of 2000.

Documentation Confirming Completion of Corrective Actions:

Documentation that will confirm DOS’ completion of corrective actions will include the
following:

Page 1 of the Risk Scoping Activities Module in ED will be updated to include the item,
“Electronic Banking Data Entry System.” A copy of the updated document will be provided to
the OIG as evidence that appropriate corrective action has been completed.

Materials describing DOS plans for electronic banking “refresher” training will be provided to
the OIG to demonstrate the content of the sessions and confirm that pre-examination activities
were properly addressed. These materials will be made available when the training plans have
been formalized in the first quarter of 2000.

In connection with the next regularly scheduled update to the DOS Manual of Examination
Policies, the Electronic Banking Section will be updated to include guidance related to work
paper documentation. A copy of the updated section will be forwarded to the OIG as
confirmation that appropriate corrective action has been completed.

The draft report also contained a fourth recommendation addressing the content of the Electronic
Banking Examination Procedures. This multi-part item involves revising the procedures to
provide: (a) detailed instructions for determining the connectivity between an institution’s
Internet banking site and its internal computer systems and when to make this and other key
examination decisions; (b) directions for documenting key process determinations within the
work papers; and (c) requirements that Internet banking examination work papers and reports be
independently reviewed and that the review be documented in the work papers. DOS generally
agrees that enhanced instructions regarding the determination of connectivity between an


                                                13
institution’s Internet banking site and its internal computer systems would be beneficial.
Guidance regarding other key determinations, such as consultation with Electronic Banking
Subject Matter Experts could also be improved.

Specific Corrective Actions Already Taken:
DOS has already commenced the process of soliciting field examiner input on improvements to
the Electronic Banking Examination Procedures Module in ED. Examiners have specifically
been asked about the clarity of instructions regarding the determination of connectivity between
a bank’s Internet system and its internal operations. Examiners have also been asked to
comment on other key issues such as instructions regarding the three levels of review and
consultations with specialists. Examiner input will be incorporated into the next revision of the
Electronic Banking Examination Procedures in the ED update scheduled for the first quarter of
2000.

Corrective Actions to be Taken and Related Timeline:
Parts (a) and (b) of recommendation #4 will be addressed via a combination of updates to the
Electronic Banking Examination Procedures and the Electronic Banking Section of the DOS
Manual of Examination Policies. Part (c) of recommendation #4 will be addressed via DOS’
existing field office audit program. In order to ensure that technical aspects of the electronic
banking review were properly addressed, personnel conducting the review of electronic banking
work papers will consult with Electronic Banking Subject Matter Experts as needed. Although
some regional offices already incorporate electronic banking in their field office review
programs, instruction will be provided to the regional directors to ensure that all field office
review programs encompass such activities. Written guidance will be issued to the eight
regional directors by year-end 1999.

Documentation Confirming Completion of Corrective Actions:
Documentation confirming the completion of parts (a) and (b) of recommendation #4 will consist
of updates to the existing Electronic Banking Examination Module in ED and the Electronic
Banking Section of the DOS Manual. Copies of the amended materials will be forwarded to the
OIG as confirmation that corrective action has been implemented.

Activities addressing part (c) of recommendation #4 will consist of enhancements to the DOS
field office audit programs to incorporate a review of electronic banking examination work
papers. A memorandum will be issued to the regional directors updating field office review
guidance. The OIG will be provided with a copy.

CONCLUDING COMMENTS

DOS appreciates the opportunity to comment on the observations and findings from the OIG’s
audit survey of the Internet banking area. We fully intend to appropriately implement the
specific recommendations and will provide relevant documents to the OIG that will confirm the
completion of corrective action.

DOS agrees with the OIG that Internet banking will continue to play an increasingly important
role in the delivery of financial products and services in the future. DOS is committed to


                                                14
keeping pace with the risks and supervisory challenges that are presented by developments in
banking technology. Enhancements to electronic banking and other information systems
examination programs will be considered and implemented as needed to address relevant
industry trends.

Please direct any questions regarding this response to Examination Specialists Cynthia Bonnette
or Phyllis Zumbrun.

cc:
Mr. Zamorski
Mr. Schmidt
Ms. Frank
Mr. Snyder
Mr. Lane
Ms. Koechel
Mr. Walsh
Mr. Cook
Ms. Zumbrun




                                              15
                                                                                                                                       APPENDIX II
                                                                 Management Decision Table

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC's responses as management decisions in accordance with the act and related guidance, several
conditions are necessary. First, the response must describe for each recommendation

§     the specific corrective actions already taken, if applicable;
§     corrective actions to be taken together with the expected completion dates for their implementation; and
§     documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for
any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management's response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management's descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The
information for management decisions is based on management’s written responses to our report and subsequent discussions with management
representatives.

                                                                                 Expected
    Rec.                                                                        Completion    Documentation That Will Confirm        Management
    No.              Corrective Action: Taken or Planned                           Date                Final Action                   Decision

     1.    The Corporation agreed with the recommendation. To ensure            January 31,   DOS electronic banking examination        Yes
           that examiners utilize resources available on the FDICnet, and in       2000       work papers and planning memorandums
           turn, review the bank's web site on the Internet, the list of risk
           scoping activities utilized by safety and soundness examiners
           will be updated to address this activity. The practice of
           reviewing the Electronic Banking Data Entry System for
           evidence of electronic banking will be added to the list of pre-
           examination activities that are outlined in the Examination
           Documentation modules.




                                                                                 16
                                                                              Expected
Rec.                                                                         Completion      Documentation That Will Confirm        Management
No.              Corrective Action: Taken or Planned                            Date                  Final Action                   Decision

 2.    The Corporation agreed with the recommendation. Initiatives to        September 30,   DOS electronic banking examination        Yes
       alert DOS examination staff to the importance of using internal           2000        training plans and materials
       resources, such as the FDICnet, to identify Internet banking have
       already been initiated such as during two recent regional training
       conferences in New York and San Francisco. Also, during
       Introduction to Examinations core training, assistant examiners
       are reminded to use the FDICnet and the Internet to identify
       Internet banking activities during the pre-examination process.
       DOS is anticipating "refresher" electronic banking training for
       safety and soundness examiners, where pre-examination
       activities will be emphasized, which will begin during the
       summer of 2000. A plan, detailing the objectives, content and
       schedule for this electronic banking training, will be completed
       in early 2000.

 3.    The Corporation agreed with the recommendation. Guidance on            March 31,      DOS electronic banking examination        Yes
       electronic banking related work papers will be incorporated into        2000          procedures, work papers and planning
       the existing Electronic Banking Section of the DOS Manual.                            memorandums
       This guidance will state that that the electronic banking work
       papers should contain documentation to support that examiners
       have reviewed available resources to identify the existence and
       extent of Internet banking activities.

 4.    The Corporation agreed with the recommendation. The                    March 31,      DOS electronic banking examination        Yes
       recommendation will be addressed via a combination of updates           2000          policies and procedures
       to the Electronic Banking Examination Procedures and the
       Electronic Banking Section of the DOS Manual of Examination                           Memorandum to Regional Directors.
       Policies. In addition, instruction will be provided to the regional
       directors to ensure that all field office review programs now
       incorporate electronic banking activities.




                                                                              17
